           Office of Inspector General




July 26, 2004

CARL T. JANUARY
MANAGER, DALLAS DISTRICT

SUBJECT: Audit Report – City Letter Carrier Office Preparation – Dallas District
         (Report Number DR-AR-04-005)

This report presents the results of our self-initiated audit of City Letter Carrier Office
Preparation in xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx delivery units in the
Dallas District (Project Number 04WG001DR000).

                                         Background

The Postal Service binds the nation together through delivery of personal and business
correspondence (letters and packages). In fiscal year (FY) 2003, over 200 billion pieces
of mail were delivered to more than 141 million business and household addresses
nationwide using city and rural carriers, vehicles, and delivery support systems.

The Postal Service continues to improve productivity and reduce costs. Despite the fact
that delivery point sequencing mail has saved time for office preparation and mail
volume has continued to decrease for the last three years, the Postal Service is
experiencing increased office workhours in delivery units. Mail volume, mail arrival and
dispatch times, scheduled reporting times for carriers, and office hours may vary for
each delivery unit, and are managed by the unit supervisor/manager. The Delivery
Operations Information System (DOIS), deployed in FY 2002, provides actionable data,
such as mail volume, mail arrival and dispatch times, and projected office and street
hours for routes, to the delivery unit supervisors/managers to assist them in managing
daily office activities and reduce costs.

Delivery operations constitute 43 percent of the workhours in the FY 2004 field
operating budget, which is mainly attributable to office and street workhours. Salary
and benefits for rural and city carriers totaled approximately $20 billion. In the FY 2004
field budget, the Postal Service established a goal to reduce delivery workhours by
11.2 million. The Southwest Area’s budget performance goal is to reduce delivery
workhours by 891,000. However, as of February 2004, the Dallas District’s actual office
workhours had exceeded planned office workhours by 104,000.



   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
City Letter Carrier Office Preparation –                                                                DR-AR-04-005
 Dallas District


                             Objective, Scope, and Methodology
The overall objective was to review the efficiency and effectiveness of office preparation
for city letter carrier operations. Specifically, we determined whether:

       •   Delivery supervisors/managers adequately matched workhours with workload.

       •   City letter carrier’s office work activities, such as reporting times, arrival times,
           mail casing1 methods, and clock out procedures were appropriate to ensure that
           carriers departed the delivery unit as scheduled.

       •   Supervisors/managers effectively used DOIS to provide actionable data to assist
           in managing office activities.

To accomplish our objective, we visited xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxx in the Dallas District of the Southwest Area. We judgmentally
selected delivery units in
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx had office effectiveness scores of less than -15,2
and had implemented DOIS. We obtained, reviewed, and analyzed documentation,
applicable policies and procedures, and delivery unit data for the period January 1
through February 29, 2004, for the units visited. Additionally, we observed delivery
supervisor/managers and carriers’ office activities, conducted interviews to obtain
information on carrier operations, and analyzed tools developed and/or used to improve
efficiency. Although we relied on data obtained from Web Enabled Enterprise
Information System (WebEIS) and DOIS, we did not test the validity of the data and
controls over the system.

This audit was conducted from January through July 2004, in accordance with generally
accepted government auditing standards and included such tests of internal controls as
were considered necessary under the circumstances. We discussed our conclusions
and observations with appropriate management officials and included their comments,
where appropriate.

                                          Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

City Carrier Productivity – Letter Carrier Delays in the Baltimore District
(Report Number TD-AR-03-011, July 28, 2003). The report stated that early reporting
1
    To sort mail into a case that contains separations.
2
 Office effectiveness indicates a unit’s ability to meet its office workload projections based on current mail volumes
and carrier demonstrated performance. A negative result indicates that the delivery unit is working more hours than
projected. The accuracy of the workhours projection increases as the effectiveness metrics approach zero.



                                                           2
City Letter Carrier Office Preparation –                                      DR-AR-04-005
 Dallas District

wasted carriers morning time, and exposed the Baltimore District to potential
unnecessary evening overtime costs. Also, supervisors were not using DOIS to
manage carrier schedules, and consequently, could not use the system to evaluate
carrier scheduling or take corrective action. Management agreed with all
recommendations. The actions taken and planned were responsive to the
recommendations.

Management Advisory – Delayed Letter Carrier Operations in the Capital Metro Area
(Report Number TD-MA-02-005, August 29, 2002). The report stated that letter carriers
in Northern Virginia and Baltimore, who were prepared to begin their delivery routes,
were substantially delayed while waiting for “missent” mail, which processing and
distribution centers had distributed to the wrong post office. An analysis of Capital
Metro Area records indicated that the cost of making carriers wait for missent mail might
have included unnecessary overtime. Management agreed with all recommendations.
The actions taken and planned were responsive to the recommendations.

Delivery Operations Information System (Report Number DA-AR-01-003, March 29,
2001). This report stated that DOIS did not fully address emerging Postal Service-wide
business goals, such as the information platform, which affected and changed the
original requirements. The audit highlighted limitations in key areas for controlling
system development such as structured methodology, contract negotiations, contract
details, and independent reviews of deliverables. Management agreed with all
recommendations. The actions taken and planned were responsive to the
recommendations.

                                           Audit Results

Opportunities exist to improve Dallas District city letter carrier office preparation
operations in the Valley Ranch, Pleasant Grove, and Huffhines delivery units.
Specifically, impediments existed that adversely impacted delivery supervisors/
managers ability to adequately match workhours with workload. In addition, city letter
carriers’ work activities were not always appropriate to ensure they departed the
delivery units as scheduled. Further, supervisors/managers did not effectively use
DOIS to assist in managing office activities.

Workhours to Workload Not Adequately Matched

Impediments existed that impacted delivery supervisors/managers’ ability to adequately
match workhours with workload. For example, carriers in the Valley Ranch and
Huffhines delivery units reported for duty before the mail was available for them to case.
Carriers in two units, Valley Ranch and Huffhines waited as much as 15 minutes for
mail to become available to begin casing. In addition, carriers in the Valley Ranch unit
withdrew mail at various times from the mail staging area while casing their routes
before supervisors could measure and record the mail volumes. This occurred
because delivery supervisors/managers did not ensure distribution clerks dispersed


                                                 3
City Letter Carrier Office Preparation –                                        DR-AR-04-005
 Dallas District

the mail to the carriers’ cases before they reported for duty. In addition, delivery
supervisors/managers did not monitor carriers withdrawing mail from the mail staging
area before the supervisors measured and recorded the daily mail volumes. This
hampered the supervisors’ ability to accurately record mail volumes to determine the
office workhour and workload requirements for the delivery units.

Handbook M-39, Management of Delivery Services, states that 80 percent of the
caseable mail should be at the carriers’ case when they report to work. Supervisors/
managers should ensure distribution clerks provide an even flow of mail to carriers each
day. In addition, in offices where it is impractical to place mail on or near the carrier’s
case before the reporting time, management should consider establishing a fixed
schedule for mail withdrawals or establish a minimum number of controlled withdrawals.
Carriers are not allowed to withdraw their mail except under controlled conditions in
order to facilitate the volume recording process.

We discussed these issues with the xxxxxxxxxxxxxxxxxxxxxxxx delivery supervisors
and Dallas District officials and both agreed that mail should be at the carriers’ stations
to begin casing the mail for their assigned routes when they report to work. In addition,
they agreed supervisors must control mail withdrawals to ensure mail is accurately
measured and recorded to meet daily planned office workhours.

Managing disbursement of carriers’ caseable mail and controlling mail withdrawals allow
supervisors to improve the accuracy of recorded mail volume and enables a better
determination of the workhours needed to deliver the workload.

Recommendations

We recommend the Manager, Dallas District, direct xxxxxxxxxxxxxxxxxxxxxxxxxx
Delivery Unit Supervisors to:

    1. Disburse caseable mail to carriers’ stations before they report for duty.

    2. Monitor carrier activities to ensure that mail is not withdrawn until supervisors
       record daily mail volumes.

Management’s Comments

Management disagreed with both recommendations because the findings in the report
reflect on the performance of the entire Dallas District and not the three delivery units
we visited. Management stated that they appreciate the observations and take the
recommendations constructively. They used the findings in the report as an opportunity
to strengthen their compliance process and validate their accountability factors.
Management stated that on April 19, 2004, Operations Program Support implemented
an aggressive city delivery review addressing the findings identified in our report. The
review is an ongoing part of the Operations Program Support Customer Service


                                              4
City Letter Carrier Office Preparation –                                         DR-AR-04-005
 Dallas District

Analyst’s activities, which includes observations at delivery units and coaching and
training managers. As of June 4, 2004, this process was completed at 29 units and 11
units are scheduled for review by July 9, 2004. Management’s comments, in their
entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations. We met with
management on June 29, 2004, to address their disagreement with the report
recommendations. As a result, we have revised the report sections to reflect findings at
the specific delivery units visited in the Dallas District. Management’s actions taken or
planned should correct the issues identified in the finding.

Carriers’ Office Activities Not Always Appropriate

City letter carriers’ office work activities in the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxx units were not appropriate to ensure that carriers departed their delivery units as
scheduled. City letter carriers in the xxxxxxxx unit engaged in time wasting practices,
such as loud talking, eating at case, and standing in line waiting for accountable mail
and scanners before placing mail in the proper separation for delivery. In addition,
carriers at the xxxxxxxxxxxxxxxxxxxxxxxx units left for street delivery at times
established by the supervisors or according to the base office time instead of the DOIS
estimated schedule. Also, carriers in the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
units loaded mail in delivery vehicles while charging office time instead of street delivery
time. These activities occurred because delivery supervisors/managers did not enforce
a more diligent and courteous performance of duties. In addition, supervisors did not
post the required leaving times at the carrier’s case to ensure carriers maintained the
daily leaving schedules estimated in DOIS to begin their routes. Further,
supervisors/managers did not monitor and enforce correct clock out procedures when
carriers ended office time to begin street delivery.

Handbook M-41, City Delivery Carrier Duties and Responsibilities, states that carriers
are to be prompt, courteous, and obliging in the performance of duties, and attend
quietly and diligently to work while refraining from loud talking. Handbook M-39,
Management of Delivery Services, requires the delivery supervisor on a daily basis to
determine if carriers reporting, leaving, returning, and ending times are consistent with
established schedules. DOIS also provides estimated leave times for carriers on a daily
basis. In addition, after clearing accountable mail cages, making final withdrawal, and
pulling down mail for delivery, carriers should inspect their vehicles, clock out, load their
vehicles, and leave for street delivery.

We discussed the carriers’ office activities with the xxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxx unit supervisors and district officials and they agreed that carriers
should maintain appropriate office conduct as to minimize time in the office. Further,
district officials stated that supervisors should inform carriers of the DOIS daily


                                              5
City Letter Carrier Office Preparation –                                        DR-AR-04-005
 Dallas District

estimated leave time and monitor carriers when they clock out to end office time and
begin street time.

Engaging in inappropriate work activities and using incorrect clocking out procedures
may negatively impact workhours by causing increases in planned office and street
workhours.

Recommendations

We recommend the Manager, Dallas District, direct xxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxx Delivery Unit Supervisors to:

    3. Reemphasize and enforce the importance of appropriate office work activities to
       ensure carriers are prompt, courteous, and obliging in the performance of duties.

    4. Use daily leave times as established in DOIS for carrier departures.

    5. Require carriers to correctly clock out when office preparation activities are
       completed and before street activities begin.

Management’s Comments

Management disagreed with both recommendations because the findings in the report
reflect on the performance of the entire Dallas District and not the three delivery units
we visited. Management stated that they appreciate the observations and take the
recommendations constructively. They used the findings in the report as an opportunity
to strengthen their compliance process and validate their accountability factors.
Management stated that on April 19, 2004, Operations Program Support implemented
an aggressive city delivery review addressing the findings identified in our report. The
review is an ongoing part of the Operations Program Support Customer Service
Analyst’s activities, which includes observations at delivery units and coaching and
training managers. As of June 4, 2004, this process was completed at 29 units and 11
are scheduled for review by July 9, 2004

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 3, 4, and 5. We met with
management on June 29, 2004, to address their disagreement to the report
recommendations. As a result, we have revised the report sections to reflect findings at
the three delivery units visited and not all of the delivery units in the Dallas District.
Management’s actions taken or planned should correct the issues identified in the
finding.




                                             6
City Letter Carrier Office Preparation –                                        DR-AR-04-005
 Dallas District

Supervisors Not Effectively Using DOIS

Delivery unit supervisors/managers did not effectively use DOIS to assist in managing
office activities in the xxxxxxxx delivery unit. Instead, supervisors/ managers used
DOIS more as a reporting tool rather than using the system to manage the daily office
delivery activities such as assigning carriers to routes and posting the DOIS estimated
daily leaving schedules for carriers. They relied more on experience and personal
knowledge to manage their units’ daily delivery unit activities instead of the delivery
information provided by DOIS. This occurred because supervisors/managers indicated
they were not comfortable using DOIS in managing daily office activities and had not
received any formal training using DOIS.

DOIS was designed to provide actionable data to the delivery unit supervisors/
managers to assist them in managing office activities, planning street activities, and
managing route inspection and adjustment activities. In 2003, the Time and Attendance
Collection System (TACS) and DOIS were integrated to provide a robust tool to build a
solid, effective management foundation to manage daily business operations and
reduce costs.

Supervisors indicated that they used DOIS to retrieve reports as needed but they were
not comfortable using the system to mange daily office activities. Dallas District officials
stated that the Associate Supervisor Program, a 16-week training program for
candidates for first-line supervisory positions, does not contain DOIS training. However,
they informed us that the district provides DOIS training to those individuals who have
participated in the program.

Using DOIS information enables supervisors to improve management of office activities
by providing a baseline of historic data to help them plan and determine how many
hours carriers should need to deliver the daily mail volume for each carrier route.

Recommendation

We recommend the Manager, Dallas District:

    6. Develop and implement an integrated training process that includes teaching,
       coaching, and training of supervisors/managers in using DOIS to manage office
       activities.

Management’s Comments

Management agreed with the recommendation. Management stated that continued
DOIS training is critical and as a result of our audit, they realized the Associate
Supervisor Program did not include DOIS in their curriculum. Management stated that
they have added DOIS training to the district curriculum and included the graduates
from earlier classes. The Associate Supervisor Program Web based training was


                                             7
City Letter Carrier Office Preparation –                                    DR-AR-04-005
 Dallas District

conducted March 9, 10, 16, and 17, 2004. DOIS workshops took place on March 30
and 31, 2004, as well as April 21 and 22, 2004. In addition, management stated that all
supervisors have been trained in DOIS procedures and they continue to provide
refresher workshops. Operations Programs Support and senior management are
continuing to provide on-site coaching.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Jack D. Weatherford
    Brenda L. Bishop
    James E. Martinez
    Joseph K. Moore




                                           8
City Letter Carrier Office Preparation –                  DR-AR-04-005
 Dallas District


                        APPENDIX. MANAGEMENT’S COMMENTS




                                           9
City Letter Carrier Office Preparation –        DR-AR-04-005
 Dallas District




                                           10
City Letter Carrier Office Preparation –        DR-AR-04-005
 Dallas District




                                           11
City Letter Carrier Office Preparation –        DR-AR-04-005
 Dallas District




                                           12
City Letter Carrier Office Preparation –        DR-AR-04-005
 Dallas District




                                           13
